<html>
<title> - OSCE PARTNER STATES AND NEIGHBORS OVERWHELMED BY IRAQI REFUGEES: BAND- AID SOLUTIONS TO IMPLOSION IN THE MIDDLE EAST?</title>
<body><pre>[Joint House and Senate Hearing, 110 Congress]
[From the U.S. Government Publishing Office]



                            


 
 OSCE PARTNER STATES AND NEIGHBORS OVERWHELMED BY IRAQI REFUGEES: BAND-
             AID SOLUTIONS TO IMPLOSION IN THE MIDDLE EAST?

=======================================================================

                                HEARING

                               before the

                       COMMISSION ON SECURITY AND
                         COOPERATION IN EUROPE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2008

                               __________

  Printed for the use of the Committee on Security and Cooperation in 
                                 Europe




                   Available via http://www.csce.gov
            
            
            
            
            
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]           
            
            
            
            
            
            
            
            
  
                             U.S. GOVERNMENT PUBLISHING OFFICE
     91-148                          WASHINGTON : 2015       
  _________________________________________________________________________________
  For sale by the Superintendent of Documents, U.S. Government Publishing Office,
        Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
            
            
            
             COMMISSION ON SECURITY AND COOPERATION IN EUROPE  
            

                    LEGISLATIVE BRANCH COMMISSIONERS
                    

               

          SENATE                                    HOUSE

BENJAMIN CARDIN, Maryland,                 ALCEE HASTINGS, Florida,
  Co-Chairman                                Chairman
RUSSELL FEINGOLD, Wisconsin                LOUISE McINTOSH SLAUGHTER,
CHRISTOPHER DODD, Connecticut              New York
HILARY RODHAM CLINTON, New York            MIKE McINTYRE, North Carolina
JOHN KERRY, Massachusetts                  HILDA SOLIS, California
SAM BROWNBACK, Kansas                      G.K. BUTTERFIELD, North Carolina
GORDON SMITH, Oregon                       CHRISTOPHER SMITH, New Jersey
SAXBY CHAMBLISS, Georgia                   ROBERT ADERHOLT, Alabama
RICHARD BURR, North Carolina               JOSEPH PITTS, Pennsylvania
                                           MIKE PENCE, Indiana
                                     
                                       
                                     
                                      
                                     
                                     
                                     
                                     
                                     
                                     
                                     

                     EXECUTIVE BRANCH COMMISSIONERS

                   DAVID KRAMER, Department of State
                 MARY BETH LONG, Department of Defense
              DAVID STEEL BOHIGIAN, Department of Commerce
 OSCE PARTNER STATES AND NEIGHBORS OVERWHELMED BY IRAQI REFUGEES: BAND-
             AID SOLUTIONS TO IMPLOSION IN THE MIDDLE EAST?

                              ----------                              

                             APRIL 10, 2008
                             COMMISSIONERS

                                                                   Page
Hon. Alcee Hastings, Chairman, Commission on Security and 
  Cooperation in Europe..........................................     1
Hon. Christopher Smith, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     3
Hon. Hilda Solis, Commissioner, Commission on Security and 
  Cooperation in Europe..........................................     9
Hon. Benjamin L. Cardin, Co-Chairman, Commission on Security and 
  Cooperation in Europe..........................................    22

                                MEMBERS

Hon. Maxine Waters, Member of Congress from the State of 
  California.....................................................     8
Hon. John Dingell, Member of Congress from the State of Michigan.    16

                               WITNESSES

Ambassador James Foley, Senior Coordinator for Iraqi Refugees, 
  U.S. Department of State.......................................     5
Lori Scialabba, Senior Advisor to the Secretary of Homeland 
  Security for Iraqi Refugees, Department of Homeland Security...    10
Michael Gabaudan, Washington Director, United Nations High 
  Commissioner for Refugees......................................    19
Anders Lago, Mayor, Sodertalje, Sweden...........................    22
Noel Saleh, Member, Board of Directors, Arab Community Center for 
  Economic and Social Services...................................    23


 OSCE PARTNER STATES AND NEIGHBORS OVERWHELMED BY IRAQI REFUGEES: BAND-
             AID SOLUTIONS TO IMPLOSION IN THE MIDDLE EAST?

                              ----------                              


                             APRIL 10, 2008

          Commission on Security and Cooperation in Europe,
                                                    Washington, DC.
    The hearing was held from 2:30 p.m. to 4:31 p.m. EST in 
Room 1100 of the Longworth House Office Building, Washington, 
District of Columbia, Hon. Alcee Hastings, Chairman, Commission 
on Security and Cooperation in Europe, presiding.
    Commissioners present: Hon. Alcee Hastings, Chairman, 
Commission on Security and Cooperation in Europe; Hon. Benjamin 
L. Cardin, Co-Chairman, Commission on Security and Cooperation 
in Europe; Hon. Christopher Smith, Commissioner, Commission on 
Security and Cooperation in Europe; and Hon. Hilda Solis, 
Commissioner, Commission on Security and Cooperation in Europe.
    Members present: Hon. Maxine Waters, Member of Congress 
from the State of California; and Hon. John Dingell, Member of 
Congress from the State of Michigan.
    Witnesses present: Ambassador James Foley, Senior 
Coordinator for Iraqi Refugees, U.S. Department of State; Lori 
Scialabba, Senior Advisor to the Secretary of Homeland Security 
for Iraqi Refugees, Department of Homeland Security; Michael 
Gabaudan, Washington Director, United Nations High Commissioner 
for Refugees; Anders Lago, Mayor, Sodertalje, Sweden; and Noel 
Saleh, Member, Board of Directors, Arab Community Center for 
Economic and Social Services.

   HON. ALCEE HASTINGS, CHAIRMAN, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Mr. Hastings. Ladies and gentlemen, if I could ask you to 
have your seats, please, it would be appreciated. Thank you all 
very much.
    I'd be less than candid if I didn't say that this is a real 
hearing room. Most of our hearings and briefings we don't have 
all this fine, extraordinary facility here, I'm pleased that we 
were able to get this room for today's important hearing.
    I'm also pleased to welcome all of you here for our hearing 
regarding the plight of Iraqi refugees and their impact on the 
countries that are hosting them, in particular, member and 
partner states of the Organization for Security and Cooperation 
in Europe, Jordan, Egypt and Turkey, which host more than a 
half million refugees--and Egypt. All of these are OSCE 
Mediterranean partners. Turkey is an OSCE participating state 
and our NATO partner.
    I happen to have the distinct pleasure of serving as 
special representative on Mediterranean affairs for the OSCE 
Parliamentary Assembly and therefore have a keen interest in 
the partner states, their neighbors and the region. Today's 
hearing is going to focus on how security, or lack thereof, in 
Iraq has impacted the people of that country.
    Over 2 million Iraqis have fled, primarily to Syria and 
Jordan and 2.4 million are displaced within their own country 
and others are displaced in other areas that we are not certain 
of their numbers. This is the largest displacement of people in 
the region since 1948.
    I've introduced comprehensive legislation to address this 
crisis and have continuously called on our administration to 
commit substantially increased funding to assist displaced 
Iraqis and to expedite resettlement of those who seek shelter 
in the United States.
    I am coming from a press conference with Congressman 
William Delahunt, Congresswoman Laura DeLauro and Congresswoman 
Jane Harman. We, along with eight others of our colleagues, 
Republican and Democrat, sent to the government of Iraq, 
President Maliki, requesting that he and his colleagues in 
their budgetary framework contribute $1 billion of Iraqi 
resources--and I might add they have a surplus and a projected 
surplus for the next year--we are estimating it will be about 4 
percent of their total budget--to take care of their citizens.
    Jordan, a small country of 6 million people, has received 
more than a half million Iraqi refugees. This amounts to an 8 
percent increase in its population in essentially a two-year 
period. To put this in perspective, it would be the equivalent 
of the United States enduring a stream of 24 million 
traumatized people across our borders in the same time frame.
    Poverty, unemployment and inflation are on the rise in 
Jordan, making it extremely difficult for the Jordanian 
government and society to cope with the influx of refugees. 
Syria, straining under an Iraqi refugee population more than 
double that of Jordan faces economic and political challenges 
as well in its efforts to support displaced Iraqis.
    I also personally see this as an opportunity for greater 
and more sustained diplomatic efforts to work in that area with 
Syria. The day-to-day needs of Iraqis continue to increase as 
their resources are diminishing. Multiple families are sharing 
tents and hovels and dwellings in other places and seeking 
medical attention and many of them frequently suffer from 
severe depression and stress-related illnesses.
    NGOs are attempting to address this burgeoning medical 
crisis, but lack the resources to provide comprehensive 
counseling, leaving increasingly large numbers of the Iraqi 
refugee population simmering in a cauldron of stress and 
depression. This situation does not bode well for long-term 
societal stability and potentially makes the refugees 
vulnerable to influence by extremist groups who can provide 
assistance.
    I wish to underscore that, because there is a definite 
security issue of consequence and of importance to this nation. 
I note that the administration has made some progress in 
addressing this crisis. It has set a goal of admitting 12,000 
Iraqi refugees this year and will increase humanitarian 
assistance for displaced Iraqis to 200 million in 2008, up from 
43 million in 2006.
    However, I must say that these are only small steps in the 
right direction. The increase in humanitarian assistance is a 
paltry sum compared to the $338 million our government spends 
each day on combat operations in Iraq.
    NGOs working with Iraqi refugees estimate that $1.5 billion 
in humanitarian assistance is needed this year to meet even 
basic needs. In addition, the United States has admitted only 
4,933 Iraqi refugees between April 2003 and March 31st of this 
year.
    My friends in Sweden, and one of them is here that I've 
known 13 years and is the chair of the foreign affairs of the 
Swedish Parliament, noted in that, as did Congressman Smith and 
I, the ambassador--and I regret very seriously that time 
constraints have not afforded me an opportunity to meet with 
the mayor. I hesitate to pronounce the name of the city because 
I don't want to mess it up.
    But he's doing all right without having met with me. He was 
on the front page of the ``Washington Post'' today, and I'm 
pleased about that.
    Sweden has about 9 million people, and they have accepted 
34,000 refugees since 2003. The city that I referred to has 
accepted 5,000, a city of 83,000 people.
    That has to have an impact on their infrastructure, and I 
ask, if Sweden can do 34,000, can't we here in the United 
States do more?
    Before I introduce our panel, I'd just like to note that 
while the media, presidential candidates and many in Congress 
are focused on the politics of Iraq, whether or not the surge 
is working and the way forward, I say this: We cannot overlook 
this humanitarian crisis ensuing in the region. Iraqi refugees 
and internally displaced persons need our help. If we do not 
broaden our focus on Iraq, the security implications could 
potentially destabilize the region.
    We have before us today two panels of distinguished 
witnesses that I will come back to. Their biographies have been 
distributed at our tables outside, so I will not, when I do 
introduce them, go into great detail. I certainly look forward 
to their advice regarding how our government and others can 
address this deepening crisis.
    One final note from me, when I was in Jordan in December, I 
was particularly pleased that the king had taken cognizance of 
the need to educate the children, notwithstanding limited 
resources, those children of the Iraqi refugees. I consider 
that of critical importance, and I applaud the Jordanian 
government, as I do my colleagues and friends in Sweden for 
their extraordinary efforts in this regard.
    I'd like now to hear from the ranking member of the 
Helsinki Commission, my good friend from New Jersey, 
Congressman Smith.

 HON. CHRISTOPHER SMITH, COMMISSIONER, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Smith. Thank you very much, Mr. Chairman.
    Let me just echo your respect and gratitude to the 
government of Sweden. If you add all of the number of Iraqis 
who have emigrated there, many of them being asylum seekers, up 
to 100,000 Iraqis are in Sweden, again, underscoring I think a 
very strong sense of generosity on their part. I think it's 
important to point that out and hold it up so that others see 
it, not just in the United States, but also among our European 
friends and partners.
    I do want to thank you, Mr. Chairman, for calling this very 
timely hearing on the deeply disturbing plight of Iraqi 
refugees and the impact that the crisis is having on OSCE 
partners, states and neighbors.
    The numbers that are associated with this crisis are 
staggering. One in five Iraqis has been displaced from their 
homes since 2003. The U.N. High Commissioner for Refugees 
estimates that 2.5 million Iraqis have fled the country and 
some 2.4 million others, almost 9 percent of the population, 
are internally displaced. This is occurring in a region that is 
already beset, as we all know, by a catastrophic series of 
humanitarian and political challenges.
    It is reported that most of those who have fled Iraq are 
so-called moderates, lawyers, doctors and other working-class 
professionals. Even though they are not allowed to work legally 
in their countries of refuge, it seems many, if not most, are 
saying that they have no intention to return to Iraq. Their 
resources, to the extent that they were able to leave with 
them, are quickly dwindling.
    Jordan, Syria and other neighboring countries are not state 
parties to the 1951 U.N. convention relating to the status of 
refugees, or the 1967 protocol, and these countries refuse to 
recognize the Iraqi populations as refugees and to accord them 
the rights and benefits that accompany such a designation, 
preferring instead to refer to them as ``guests.''
    This refusal is due at least in part to these countries' 
historical experience and ongoing challenges with the 
Palestinian refugee population, which is also complicating the 
Iraqi situation. Syria and Jordan have received the vast 
majority of those fleeing Iraq. An estimated 1.5 million are in 
Syria and 500,000 to 750,000 have escaped to Jordan.
    UNICEF reports that half of those who have fled their homes 
in Iraq are children, and that as many has 320,000 Iraqi 
children are in Syria alone. Refugee children who are allowed 
to attend the public schools must try to learn in seriously 
overcrowded classrooms.
    Uncertainty about their residence permits and visas creates 
another barrier to education, as many parents are reluctant to 
seek out these and other social services.
    Furthermore, poverty is pulling many Iraqi children out of 
school and forcing them to work, placing them in extremely 
vulnerable situations, in addition to depriving them of the 
learning that they will need to secure hope for the future.
    Women are also being exploited, and many are resorting to 
prostitution in order to provide for themselves and their 
families. In addition to suffering and other risks that 
circumstances inherently engender, I am also deeply concerned 
as to whether a door has been opened for human traffickers, who 
would be all too anxious to take advantage of such 
vulnerabilities.
    Not only would they see opportunities within the host 
countries, but perhaps even more so at the borders, where they 
could take advantage of the near impossibility of obtaining an 
Iraqi passport and the refusal of neighboring countries to 
issue visas, circumstances that encourage human smuggling, 
which in turn enhance the opportunities for human trafficking.
    I look forward to engaging our witnesses in the discussion 
as to whether or not there is any indication that this human 
rights violation is occurring.
    Another serious humanitarian concern is the health status 
of Iraqi refugees. It is dismaying and extraordinarily tragic 
to point out that a surprising number of refugees in Syria, 
especially children, have various forms of cancer. Others with 
chronic illnesses, such as high blood pressure and diabetes, 
are unable to manage these diseases due to the costs of health 
care and the shortage of humanitarian assistance in this area.
    There are organizations that are struggling to address 
these needs, including the Catholic Relief Services, which is 
not only funding mobile clinics, kidney dialysis and 
prescriptions for chronic diseases, but also mental health 
support groups to try to address the psychosocial consequences 
of the violence that these refugees have endured.
    Yet the health, educational and other basic needs of this 
enormous population remain great and current efforts are not 
sufficient to address them. The situation is also exacerbating 
the poverty, social services and political tensions among 
citizens of the host countries, tensions that need to be 
quelled, before they explode.
    That is why, once again, Mr. Chairman, I appreciate this 
opportunity to hear from our very distinguished witnesses and 
to explore what measures we ought to be taking in order to 
mitigate this problem. I yield back the balance.
    Mr. Hastings. Thank you very much, Congressman Smith.
    Our first panel is Ambassador James Foley and Ms. Lori 
Scialabba.
    The ambassador and I have had extensive work in Haiti, 
where he was the U.S. ambassador from '03 to '05 and the 
ambassador, in addition, has been the deputy commandant and 
international affairs adviser at the National War College. He 
was recently appointed by Secretary Rice for Iraqi refugee 
issues in September of '07.
    Ms. Scialabba has an extraordinary set of credentials as 
associate director of refugee, asylum and international 
operations for U.S. Citizenship and Immigration Services and, 
before joining the Department of Homeland Security, she most 
recently served as chairman of the board of immigration 
appeals, without getting the Executive Office for Immigration 
Review at the Department of Justice. Not going into full 
curriculum vita, she finished the University of Maryland 
undergraduate and Memphis State University.
    But, Ambassador Foley, if you would, sir.

AMBASSADOR JAMES FOLEY, SENIOR COORDINATOR FOR IRAQI REFUGEES, 
                    U.S. DEPARTMENT OF STATE

    Mr. Foley. Thank you, Mr. Chairman. Thank you for this 
opportunity to appear today before the U.S. Helsinki Commission 
to discuss the plight of Iraqi refugees and what the U.S. is 
doing to meet their needs and to alleviate the impact on 
neighboring countries.
    The displacement of roughly 2 million Iraqis in the region 
and up to 2.7 million internally represents a major 
humanitarian crisis and challenge to the United States and to 
the international community. The administration is responding 
to the challenge in three principal ways.
    First, by endeavoring to create the conditions of peace, 
security and stability inside Iraq that will enable the 
refugees eventually to go home. In this sense, the security and 
the humanitarian tasks we face are not alternatives, but 
instead are inextricably linked to each other.
    Second, by resettling in the United States significant 
numbers of the most vulnerable Iraqi refugees, who cannot go 
home.
    Third, by ensuring that the international community is 
providing the assistance necessary to support and sustain the 
refugees in the region until such time as they can go home.
    I'll tell you, frankly, that when Security Rice appointed 
me to the position of the senior coordination for Iraqi refugee 
issues, she was not satisfied with the pace of our resettlement 
efforts on behalf of the most vulnerable Iraqi refugees.
    The job she gave me was to identify and overcome obstacles 
to our goal, resettling 12,000 Iraqis in the U.S. this fiscal 
year. She believed that my appointment and that of my 
counterpart here today, Lori Scialabba from the Department of 
Homeland Security, would facilitate the kind of interagency 
cooperation needed to meet this goal.
    I'm pleased to report that we have indeed worked 
productively together to establish an increasingly robust 
program of Homeland Security circuit rides or interviews in key 
locations throughout the Middle East that will keep pace with 
the referrals we've been receiving from UNHCR and that can 
produce 12,000 arrivals of Iraqi refugees in the U.S. this 
fiscal year.
    The foundation for this program is the capacity of our 
overseas processing entities throughout the region. Our key 
processing entities did not exist in Syria and Jordan at the 
beginning of 2007 and it took some time last year to put the 
infrastructure in place. But now that they are able to process 
efficiently in most, if not all, key locations, and now that 
our Homeland Security colleagues have been allowed to resume 
interviewing Iraqi refugees in Syria, our program can operate, 
and is operating, in a much higher volume.
    The result of these efforts is that we move from about 
2,800 interviews of Iraqi refugees in the first quarter to 
6,000, a little more than that, in the second quarter and, 
absent any new impediments, the volume will grow to 8,000 or 
more interviews in this, the third quarter of the fiscal year.
    In other words, we built up the pipeline that's going to 
produce the numbers of arrivals we need to reach our goal. Our 
monthly arrival numbers now still reflect the capacity that we 
had to conduct interviews last year, in 2007. But they're 
moving in the right direction--245 arrivals in December, 375 in 
January, 444 in February, 751 last month. But they're still 
quite short of where we expect them to be in just a few months.
    In sum, 12,000 remains our goal and it can be achieved. We 
can't guarantee that we can achieve it. We've strengthened 
every link in the chain, but some links remain weak, notably 
our processing ability in Syria. But what I can guarantee is 
that we're doing everything we can to put ourselves in a 
position to reach our goal.
    Turning to the assistance side, the United States believes 
that the humanitarian needs of Iraqi refugees are indeed 
increasing, as you have suggested, Mr. Chairman. Many of the 
nearly 2 million refugees who fled Iraq were of the middle 
class. In other words, they had means and resources to one 
degree or another.
    What's happening today is the inexorable depletion of those 
means and the consequent increase in the international 
requirements for supporting and sustaining and protecting the 
refugees in the countries of first asylum. The sum total of 
appeals by the United Nations and other international agencies, 
assisting both internally and externally displaced Iraqis for 
2008 is almost $900 million.
    The United States has by far played the leading role in 
responding to these appeals. We've already made available $208 
million, and that, halfway through the fiscal year, already 
exceeds our total of $171 million for 2007. And we anticipate 
making available shortly over $70 million in additional 
assistance, thus the U.S. contribution we currently anticipate 
will fund one-third of the international appeals, well 
surpassing the traditional ceiling set by both ourselves and 
the receiving agencies.
    Other donors have already pledged or dispersed $50 million 
in assistance, and we anticipate from our discussions with 
other governments around the world an additional $160 to $175 
million will be made available by various donors. In other 
words, there is currently a shortfall in the neighborhood of 
around $375 to $400 million to fund the total international 
appeals.
    Overcoming this shortfall and funding the international 
appeals was the principal focus of a visit I recently undertook 
to the Middle East and to Europe. Among Arab governments, I 
found broad sympathy for the plight of Iraqi refugees and 
recognition of the regional dimensions of the crisis and the 
implications for stability. I believe there is in fact a 
willingness to contribute financially.
    But, everywhere I went, there was a unanimous view that the 
government of Iraq needed to step forward first and itself 
contribute substantially to meeting the needs of its citizens 
who have had to flee to neighboring countries. I also heard 
similar views in Europe.
    Let me make clear to the members of the commission that I 
expressed the agreement of the United States to the premise 
that it was time for a substantial commitment by the government 
of Iraq to the various international appeals in support of 
Iraqi refugees and displaced persons. This is the strong view 
of the administration. It is being shared with the authorities 
in Baghdad.
    At the same time, in numerous meetings, I stressed the 
urgency of the situation and the need for all parties with 
means, responsibilities and interests in regional stability to 
respond in a significant way to meeting the needs of the 
refugees and the hosting countries. I'd be happy to amplify on 
those discussions I had and any other questions you might have 
subsequently.
    Thank you, Mr. Chairman.
    Mr. Hastings. Ms. Scialabba, before going to you, you will 
note that we were joined by two of my colleagues and I'd 
appreciate in the order that they came if they would have any 
opening comments.
    I would turn now to the chair of the Iraq Caucus and vice 
chair of the Progressive Caucus and one who has spent a career 
dealing in human rights and humanitarian issues.
    My colleague from California, Maxine Waters.

   HON. MAXINE WATERS, MEMBER OF CONGRESS FROM THE STATE OF 
                           CALIFORNIA

    Ms. Waters. Thank you very much, Chairman Hastings. I thank 
you for your kindness in allowing me to join you in this 
important meeting today. This is an extremely important issue 
and it hasn't been getting as much attention as it deserves, so 
I'd like to comment you for your leadership in this matter and 
all that you've been doing.
    In fact, with the help of Chairman Hastings, I have 
recently sent a letter to President Bush, signed by 89 members, 
expressing our deep concern over the plight of displaced 
Iraqis.
    I'd like to thank our panelists here today, Ambassador 
Foley, whom I've had the opportunity to meet in some of his 
other assignments. I'd like to thank Ms. Scialabba for being 
here on this panel today.
    I'd like to share with you some of the letter that we all 
signed that went to the president. That letter said, rarely 
does confronting a crisis align our moral and national security 
interests as closely as does providing assistance to the Iraqis 
displaced by violence.
    There are few more important tests of our foreign policy 
than our leadership in response to the growing crisis 
confronting the displaced population of Iraq. The displacement 
crisis will get worse, if ignored, and we look forward to the 
president's support as we work to address this issue in 
Congress.
    I am optimistic that the amount of support we're receiving 
on the letter signifies the amount of congressional will we 
will have to appropriately address these problems. I hope this 
letter to the president will continue to the process that we 
are taking part in, as we are today, addressing the plight of 
the millions of refugees and internally displaced persons whose 
lives have been scattered around the Middle East.
    I also want to briefly mention some legislation that I've 
recently introduced which will help to give context to the 
questions that I will have for the witnesses.
    Let me just say that while I recognize the role that you're 
playing, Mr. Ambassador, in all of this, my bill that asks 
for--it's called the recovery and subject of Iraq act, and 
would address, again, the growing crisis confronting the 
displaced population by creating an Iraqi displacement 
coordinator in the executive office of the president to engage 
U.S. diplomatic resources in addressing the crisis, requiring 
the coordinator to create a long-term, durable strategy to 
address the displacement crisis, requiring the coordinator to 
harmonize international effort to address the crisis, 
encouraging affected governments to support their own 
populations and requiring a report from the coordinator on the 
progress of the strategy and the evaluation of the conditions 
confronting the displaced.
    It is clear that any solution to the problems in Iraq must 
include an organized effort to return the displaced Iraqis to a 
safe and stable environment. This bill, of course, will not 
enforce refugees to return against their will. Rather, it 
begins a long planning process necessary to prepare for 
eventual voluntary returns of the Iraqis.
    The creation of the high-level Iraqi displacement 
coordinator would send a strong signal that the United States 
is committed to working with the governments of the region to 
address the humanitarian crisis.
    I thank our witnesses for being here today and I certainly 
thank our chairman and I very much look forward to working with 
the administration in this coming year, as well as with my 
fellow members of Congress, to appropriately address the Iraqi 
displacement crisis.
    I was not here for all of your testimony, Ambassador Foley, 
and as I briefly thumbed through it, I see that you do describe 
the seriousness of the displacement. It was a few days ago that 
I got information about the plight of many of the women and the 
families who are fleeing Iraq, into Syria, and maybe into 
Jordan, who have exhausted all of their resources and have 
turned to prostitution. Women and families who are taking turns 
to go out to prostitute themselves in order to feed themselves.
    We have found that, for many who have gone to Syria and to 
Jordan and have come back to Iraq, they have found that their 
homes have been taken over and they have no place to live and 
they're on the streets. I'm further focused on the proposition 
that we must do more.
    Again, I hope that I can stay long enough to ask a few 
questions, but I thank you for the testimony that you have 
given and I yield back to the chairman. And thank you, again.
    Mr. Hastings. Thank you, Chairwoman Waters.
    I'd now like Commissioner and Congresswoman Hilda Solis to 
make any opening remarks she may wish to do.

  HON. HILDA SOLIS, COMMISSIONER, COMMISSION ON SECURITY AND 
                     COOPERATION IN EUROPE

    Ms. Solis. Thank you, Chairman Hastings, and thank you to 
the witnesses that are here today.
    It's rather apropos that we're having this hearing just as 
we had General Petraeus come in and brief members of Congress 
about the status of Iraq. We tend to often forget about the 
plight of the families and I believe its 4 million displaced 
Iraqis and, in particular, the children. My questions would be 
directed at how we are helping to define their future, because 
they're going to be the future of that government, and also 
what kind of treatment, what kind of schooling, what kind of 
provisions are being made?
    I also want to commend those other host countries that have 
taken in willingly some of the displaced refugees and my 
questions are for our own government as to why we are somehow 
cutting back by 7 percent funding in the Migration and Refugee 
Assistance program and the International Disaster Assistance 
program by 7 percent.
    I don't see any logic there, and I would like to hear from 
our witnesses when we get a chance. With that, I will end my 
statement. Thank you.
    Mr. Hastings. Thank you very much, and now I'll turn to Ms. 
Scialabba.
    If you would submit your full statement for the record, and 
you may summarize as you see fit, in five minutes.

  LORI SCIALABBA, SENIOR ADVISOR TO THE SECRETARY OF HOMELAND 
  SECURITY FOR IRAQI REFUGEES, DEPARTMENT OF HOMELAND SECURITY

    Ms. Scialabba. Thank you, Chairman.
    Good afternoon, Chairman Hastings, members of the 
commission, and thank you for the opportunity to appear before 
you to testify about the work that the United States 
Citizenship and Immigration Services is conducting to protect 
Iraqi refugees through the U.S. Refugee Admissions Program.
    Part of the refugee program's humanitarian mission is to 
offer resettlement in the U.S. to especially vulnerable Iraqi 
refugees who are unable to return to Iraq due to persecution. 
My office is responsible for interviewing refugee applicants 
and determining if they're eligible for resettlement in the 
United States.
    I'd like to assure the commission that USCIS is committed 
to working with the Department of State and other program 
partners to meet the administration's goal of admitting 12,000 
Iraqi refugees to the U.S. this fiscal year. Meeting this goal 
is a top priority for the agency and our officers are working 
tirelessly to interview and adjudicate the cases necessary to 
reach this target.
    That being said, there are certain variables critical to 
the program's success that do lie outside the U.S. government's 
control. In a relatively short time span the past year, all 
refugee program partners have substantially increased their 
capacities to process cases in the Middle East, building the 
infrastructure to support a large-scale operation where it 
previously did not exist.
    Overseas processing entities collect the basic biographical 
information from all applicants, including educational, work 
and military service history and interview the principal 
application regarding their refugee claim. Prior to O.P. 
prescreening, the majority of applicants are interviewed by the 
United Nations high commissioner for refugees.
    USCIS's role in refugee processing is to interview and 
adjudicate the applications for refugee settlement, perform 
certain security checks, apply the material support exemption 
authority when necessary and warranted and approve eligible 
cases once all necessary steps have been completed. The O.P. 
then completes the resettlement out-processing.
    As you can see from this brief description, there are 
multiple organizations involved in refugee admission process. 
Today, I'd like to share with you the steps that we are taking 
to marshal our resources and make our part of the process as 
efficient as possible. I'll also share with you a few of the 
obstacles that the program faces.
    USCIS is working to maintain current and timely interview 
schedules in the region. Since the spring of 2007, USCIS 
officers have interviewed Iraqis primarily in Jordan, Syria, 
Egypt, Turkey and Lebanon. We have teams of adjudicators in the 
region today and are scheduled to build teams on a continuous 
basis in the coming months.
    We completed more than 8,700 Iraqi interviews during the 
first half of this fiscal year. USCIS is fully committed--and 
we also conditionally approved over 89,000 Iraqi refugees for 
admission since the large-scale processing began. Over 4,200 of 
those people have been admitted to the United States.
    We are working with the Department of State to put together 
a schedule of up to 8,000 interviews for Iraqi refugee 
applicants during the third quarter. Given the current approval 
rates, we estimate that achieving this volume of interviews 
would keep the United States on track to admit 12,000 refugees 
by September 30th.
    USCIS and the Department of State share responsibility for 
conducting background checks on all Iraqi refugee applicants. 
Security checks are vigorous and no case is finally approved 
until results have been received and analyzed.
    Under regular refugee processing procedures, USCIS would 
not interview an application until the interagency security 
checks had been completed. Given the desire to expedite the 
Iraqi caseload, USCIS has agreed to conduct interviews while 
interagency name checks are still pending.
    This has enabled numerous cases to be interviewed and moved 
more quickly than if we'd waited for the security checks to 
clear before the interview. Generally, USCIS receives responses 
to the initiated security fingerprint checks within two to four 
weeks after the USCIS interview.
    This process runs concurrently with other DOS out-
processing steps, such as obtaining medical clearances and 
sponsorship assurances. Because we've been able to institute 
this process of completing several steps concurrently, on 
average the total processing time for Iraqi cases is 
significantly less than for other refugee groups worldwide.
    We've exercised the secretary's discretionary exemption 
authority to admit hundreds of Iraqi refugees who otherwise 
would have been barred from admission under the material 
support-related ground of inadmissibility. To allow as many 
qualified individuals as possible to travel this fiscal year, 
we have devoted additional resources to reviewing material 
support cases that may be eligible for the direst exemptions.
    Refugee resettlement is a complex multi-step process 
involving a large number of players, all integral to the 
success of the program. We cannot control all the variables in 
this complex process that can affect refugee admissions.
    Factors such as the number of Iraqi refugees coming forward 
to UNHCR for registration; the desire of Iraqi refugees to 
resettle in the United States; the overall pace of registration 
and prescreening; applicants failing to appear for prescreening 
interviews or USCIS interviews or flight departures; the 
continued cooperation of host governments to allow us to 
process in the regions; and other factors, such as background 
clearances, medical issues and resettlement out-processing all 
affect the refugee process.
    I'd also like to take this time to quickly update you on 
the progress being made to implement the Refugee Crisis in Iraq 
Act, which was signed into law on January 28th, 2008. In-
country processing in Iraq has begun. USCIS and the Department 
of State have already begun processing locally employed staff 
in Baghdad, who are at risk for persecution based on their 
association with the U.S. government, as well as their 
immediate family members.
    We must proceed with the utmost attention to ensuring the 
safety and security of both the resettlement personnel and the 
in-country refugee applicants. With this in mind, DHS, the 
Department of State, Embassy Baghdad and ILM are seeking ways 
to increase capacity and efficiency.
    USCIS is also working to exercise the expanded 
discretionary authority in the Consolidated Appropriations Act 
of 2008. We're considering several groups or categories of 
cases as possible candidates for the expanded terrorism-related 
inadmissibility exemption allowed under the new legislation.
    While working to exercise this new authority, USCIS has 
placed on hold denials of applications of individuals who may 
be considered for possible exemptions under the CAA. In 
addition, USCIS is reviewing applications denied on these 
grounds since enactment of the CAA to determine if individuals 
should be considered for possible exercise of the discretionary 
CAA exemptions.
    Interviewing and adjudicating Iraqi cases has been and will 
continue to be a top priority for USCIS. We look forward to 
continuing our positive and close working relationship with our 
State Department colleagues and other partners in carrying out 
the humanitarian mission of admitting Iraqi refugees to the 
United States.
    Once again, I thank you for allowing me the opportunity to 
discuss this matter and welcome any questions that you may 
have.
    Mr. Hastings. Thank you very much. I have a lot of 
questions, and I'm going to exercise a measure that I've 
utilized in the past, in the interest of time, because our 
witnesses who came from afar, I want to make sure that we get 
to them.
    I'm not going to put oral questions now, but I will submit 
to both of you our questions and would appreciate your 
answering them in a manner that we could put it on the Web 
site, and then that would suffice. I appreciate very much both 
of your testimonies.
    At this time, I turn to the ranking member, my friend from 
New Jersey, Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. I too will 
put most of my questions, but ask a few and ask that you get 
back in a written way in a timely fashion.
    Two very brief ones on the money issue. In December, $150 
million was provided for Iraqi refugees. The NGOs have 
suggested that the supplemental ought to be about $125 million 
more. The administration request is for $30 million, which 
seems to be inadequate, and maybe you could explain whether or 
not we could up that amount to get it closer to $125 million.
    Obviously, the consortium of groups, the partners, if you 
will, really do know the situation on the ground like you do 
and I know very often your requests go through OMB and what you 
ask for isn't necessarily what you get.
    Secondly, Ambassador Crocker this week in his congressional 
testimony said that UNHCR has returned international staff to 
assist with the return of internally displaced persons and 
refugees. The question there, briefly, would be does the high 
commissioner believe that conditions in Iraq are conducive to 
returns, or is anticipatory? Or are they trying to get ready 
for, rather than to begin, that kind of processing?
    Finally, on the whole issue of human trafficking, which I 
raised in my opening comments, have we seen any evidence 
whatsoever on the ground that either such trafficking or labor 
trafficking has become a problem among the displaced persons or 
among the refugees?
    Mr. Foley. Yes, thank you, Mr. Chairman, yes.
    Congressman, your second question about the view of the 
United Nations high commissioner for refugees, I will give a 
short answer but note that the panel that follows us includes 
the U.S. representative at the UNHCR. I'm sure Mr. Gabaudan 
will be able to address that very authoritatively.
    But we in some sense have been collaborating with UNHCR to 
help produce this assessment that's going to take place jointly 
by UNHCR, which is going to assist the government of Iraq to do 
an assessment of returns, not to promote returns or encourage 
returns at this stage, when conditions probably don't warrant 
that.
    We believe it's a fundamental principle that any returns 
have to be voluntary, have to be made by the refugees 
themselves based on their sense of when it is indeed safe and 
ready for them to go back. But what is important is that the 
ground be prepared to enable, really, the bulk of these 2 
million people to go home.
    That, certainly, first and foremost involves creating the 
security environment, but it also involves creating the 
governance structure, the infrastructure, the resources, the 
policy, the legislation, everything that will take so that when 
people go back they can be integrated, they can have housing, 
they can have livelihoods, they can live in peace and safety. 
That's exactly what we're supporting UNHCR to do and they will 
be conducting that assessment and assisting the government of 
Iraq, we believe, in the weeks to come.
    Your first question, about the assistance levels, as I 
described in my opening remarks, we know what the basic needs 
are for 2008. As I said, these needs are increasing. This is a 
moving picture because, as I think all of you have noted, the 
refugees themselves are running out of resources and they're 
becoming in some instances desperate.
    You alluded, and others alluded, to some emerging social 
ills that should alarm us indeed. The total, as we understand 
it, of the different, disparate international appeals is about 
$890 million. So that, in fact, is our target.
    Now, the U.S. has already contributed substantially. We 
have made available $208 million. We have another $70 million 
or so already appropriated that will be announced shortly. That 
gets us to about one-third of that total.
    We believe that traditionally we are normally well under 
that percentage. If you take, for example, the UNHCR regional 
appeal, which is $261 million, we've already pledged, we've 
already made available $95 million, which is 37 percent of that 
total.
    There are international agencies that are not comfortable 
with one country crowding out others, if you will. As I was 
telling it in my opening statement, if you add what has been 
pledged or dispersed by other donors, if you add what we know 
from our diplomatic conversations with other governments, what 
is likely to be given, we figure we're short in the 
neighborhood of $400 million.
    The question is how is that going to be funded? I would 
say, in answer to your question, the bottom line is it must be 
funded. But we believe that the U.S. has contributed 
substantially and that it is now a diplomatic challenge for us 
to exercise the arts of persuasion and to bring others into the 
equation, others who have means, resources, and interests in 
the regional stability that really is at stake in this crisis.
    Now, I mentioned that I was on a journey in recent weeks to 
promote contributions to the international appeals and, as I 
said in my remarks, a refrain, a resounding refrain everywhere 
I went, is that the government of Iraq needs to step forward, 
for two reasons. First, because these are Iraqi citizens who 
are in need, secondly, because the government of Iraq has 
resources.
    It would be different if it didn't have resources, but I 
heard this message especially in the Middle East, that others 
are willing to contribute, but they want to see the government 
of Iraq step forward in a significant and a substantial way. 
That really is going to be, I think, our top priority going 
forward.
    But, at the same time, not to neglect what we see as the 
potential for important contributions elsewhere, including 
among well-to-do Arab states. As I said, I felt that they are 
willing to contribute.
    Last year, the United Arab Emirates did provide $10 million 
to the UNHCR, so there's a precedent. I learned when I was in 
Qatar that there already is a significant educational 
initiative underway that a private foundation is undertaking in 
Syria.
    I think that we should not preempt others, and I think the 
American taxpayers would not want us to preempt others from 
doing their part. When I was in Europe, I received a somewhat 
nuanced response. Certainly our European friends have 
contributed, I would say significantly, in previous years. We 
hope they contribute significantly this year, but frankly we're 
looking for more than that, given the increasing needs that we 
all agree we see, given the serious implications of not meeting 
those needs.
    I was somewhat surprised that in some meetings, in some 
instances in Europe, I found I wouldn't say skepticism, but a 
desire to be convinced that the situation that we see of an 
increasingly dire situation is indeed the case. It was stated 
to me in more than one meeting that different European donors 
are looking to UNHCR to substantiate empirically the data 
concerning the vulnerable population.
    Now, I made it abundantly clear that the United States has 
the highest confidence in UNHCR and in its assessments of the 
vulnerability that you have stated and that we perceive, as 
well. But I'm not pessimistic. I believe that actually I heard 
an opening that, if whatever concerns or questions that were 
raised are addressed, then we would hope that that would lead 
to, indeed, substantial increases in assistance.
    I would sum up by saying that our target is to see the 
international appeals fully funded. We have done a considerable 
part. We are now in the business of urging others to do their 
part, so I would say this is something that we need to watch.
    I think Secretary Rice in Senate testimony indicated 
yesterday that we are watching this and we do have a 
supplemental request, as you indicated, that's there. But we 
will continue to watch it, and, as she said, we won't be shy to 
make a different assessment if we see that by virtue of our 
efforts that there is a remaining shortfall.
    Finally, your question, I think I alluded to about human 
trafficking, I don't have precise statistics, but we certainly 
have heard anecdotally that there are extremely worrying 
instances of different kinds of social ills developing. You 
mentioned prostitution.
    Human smuggling, for example, I think our next panel, 
especially your guest from Sweden, will be able to speak to 
that. But our understanding is that to some degree this influx 
of asylum seekers that came to Sweden came via illegal 
channels, through illegal migration channels.
    We are seeing different kinds of noxious reflections of the 
increasing needs of the population. There's no doubt about 
that, and that's where the trend lines are going, and that's 
why we have to meet our responsibilities. Thank you.
    Mr. Hastings. Ms. Waters.
    Ms. Waters. Thank you very much, Mr. Chairman. I'm going to 
submit my questions in writing, also.
    My questions will relate to the right of the refugees to be 
able to work in these countries that they have migrated to. I 
think there's a 1951 convention that mandates that the refugees 
be able to work. My questions will also include questions about 
children and their education and the health services that are 
supposedly available to families that may not be available.
    The questions that I will be submitting are questions, 
again, about the right to work, about education, about health 
care and basically about the plight of these refugees inside 
other countries and a lack of enforcement to see to it that 
their basic rights are met and that they have an opportunity to 
have a decent quality of living.
    I won't be able to stay for the rest of the hearing, 
unfortunately. I've got to get a plane, if American Airlines 
has not canceled mine.
    But I will submit those questions in writing and perhaps in 
your discussion with other members here, you may be able to 
touch on some of that, because I know these are issues that 
we're all concerned about.
    Thank you very much.
    Mr. Hastings. Thank you very much, Ms. Waters.
    Ms. Solis.
    Ms. Solis. Mr. Chairman, I'll also submit my questions.
    But just in closing, I wanted to ask both of you that this 
week, earlier, Senator Kennedy and Biden called on President 
Bush to create a White House position overseeing policy on 
refugees and persons who have been displaced in Iraq. Could you 
give me your response very quickly, for both of you?
    Ambassador.
    Mr. Foley. Yes, thank you, Madam Congresswoman. I believe 
the White House has already responded to that proposal, 
indicating the position that Ms. Scialabba and I, having been 
named in September in special capacities to lead the effort on 
the resettlement side, that the progress that's been achieved 
and that we anticipate achieving justify continuing in that 
mode.
    It's not for me personally to judge the efficacy of our 
efforts, but I would say, though, that indeed on the 
resettlement side, bringing significant numbers of Iraqis to 
the U.S., which was slow and was criticized, is turning around. 
You are going to see in the coming months, especially in the 
late spring and early summer, tremendous numbers of Iraqi 
refugees arriving in the United States.
    The question I think is more applicable on the assistance 
side, which we're mostly discussing today. There it's fair to 
say that traditionally it is the responsibility of the 
Department of State to lead our international diplomatic 
efforts and that's what we're doing. I've just, as I said, 
returned from a trip to the Middle East and to Europe to try to 
mobilize support so that we meet these international appeals, 
and I feel confident that we can succeed.
    We have a persuading job to do, but I think that there's a 
will on the part of many interlocutors that I met with to 
contribute, so I think that we're on the right track.
    Ms. Scialabba. I don't know that I have much to add to what 
the ambassador just said, other than in terms of the 
resettlement, I agree with everything he mentioned. We've got 
the infrastructure in place now to actually move large numbers 
of cases.
    We added refugee corps officers to our refugee corps this 
year. I anticipate adding some more next year, and we're 
meeting the requirements, the requests that we're getting for 
circuit rides and for interviews, and we're keeping previous 
with what is being prepared for us to interview. I think we are 
on target to meet the 12,000 admissions.
    Mr. Hastings. I'm waiting for the dean of Congress to get 
settled. He and I have filed rather substantial legislation 
that I'm sure that you all are tracking, but in light of his 
being here, not so much for questions, I know that he has 
limited time. He's already has informed us that he has another 
engagement but he took the time to be with us, and I'd like to 
hear any remarks our Chairman Dingell might have at this time.

    HON. JOHN DINGELL, MEMBER OF CONGRESS FROM THE STATE OF 
                            MICHIGAN

    Mr. Dingell. Mr. Chairman, I want to thank you for allowing 
me to join you today and to discuss the humanitarian crisis in 
Iraq.
    I want to thank you and my good friends Mr. Smith and Ms. 
Solis and to tell you how much I appreciate your leadership in 
this matter and the outstanding work you have been doing in 
this matter, in trying to help people who are hurt through the 
failures of the United States and our policy.
    I want you to know that I look forward to working with you 
in the future and will look forward to continuing our efforts 
towards both legislative resolution of the questions and also 
seeing to it that the programs that we have in this area for 
proper funding of our humanitarian programs to assist Iraqi 
refugees in this terrible crisis will have the kind of success 
that you and I and my friends Mr. Smith and Ms. Solis happen to 
want.
    I want to express my appreciation for the presence of 
Ambassador Foley and Ms. Scialabba, and I appreciate the work 
that you are doing and I thank you for your leadership in this 
matter. Like my colleagues up here, I look forward to working 
with you here.
    I want to especially welcome and to thank my friend Noel 
Saleh, who joins us today from Dearborn, where the is a leader 
in ACCESS, a great organization which does enormous good for 
the people of Dearborn, Arab Americans and others in almost 
every area of human activity.
    I've watched the organization grow from a small community 
center serving a small Arab-American population in Dearborn to 
one of the largest providers of economic and social services to 
people of all backgrounds, Arab and otherwise, in the state of 
Michigan.
    As you know, Mr. Chairman, my hometown has one of the 
largest and most vibrant Arab-American communities in the 
country. There's some argument about whether we have more than 
others, but we think we not only have more, but we also have 
the best. They're some of our finest people in Dearborn and all 
through the southeast corner of Michigan and the down rivers.
    In Dearborn, also, there are tens of thousands of Iraqis, 
many of whom came to this country after the first Gulf War. It 
is safe to assume that many of the tens of thousands of these 
refugees will be joined, we hope, by others who will be coming 
to this country in coming years and that those who will arrive 
in southeast Michigan will find not only access, but other 
organizations of similar quality and concern moving forward 
towards helping them with medical treatment, mental health 
services and employment training and many, many other needs.
    I want to, again, commend you, Mr. Chairman and Mr. Smith 
and Ms. Solis for your leadership in this. I want to express to 
Ambassador Foley my appreciations for his leadership and 
observe that earlier this year my good friend Chairman Hastings 
and I sent a letter to Secretary Rice, as you will remember, 
Mr. Chairman, asking her a number of questions about United 
States policy toward Iraq refugees and IDPs.
    In the response that we received from the State Department, 
it stated that the long-term objective for Iraqi refugees and 
IDPs is a safe and voluntary return, something which I'm sure 
most of them look with great favor upon.
    However, we know that for many of the most vulnerable 
Iraqis, including religious minorities, it will never be 
possible, or at least will be hideously dangerous.
    My question to you then, Mr. Ambassador, is what is the 
State Department doing to ensure that those who have been 
chosen for resettlement are from the most vulnerable 
populations?
    Mr. Foley. Thank you, sir. Most of the referrals that we 
receive of Iraqi refugees are sent to us by the United Nations, 
the U.N. high commissioner for refugees. The UNHCR itself has 
established 11 separate criteria upon which to determine 
referrals, determine who among the large refugee population is 
indeed extremely vulnerable and needing resettlement, permanent 
solution in a third country, in many instances, the United 
States.
    There are, as I said, 11 criteria or categories, including 
victims of torture and violence and female-headed households 
and Iraqis associated with the coalition who were targeted for 
that. There is also a category for religious minorities and 
other minorities who may be targeted. We take these referrals 
and that's the basis, really, of most of our adjudications and 
admissions.
    Apart from that, we have in December--we have reached out 
to Iraqi immigrants or citizens in the U.S. who have filed 
immigrant petitions on behalf of relatives in Iraq. We've 
granted direct access--in other words, they don't need UNHCR 
referrals, for Iraqis in that category.
    It so happens that when Congress passed the Iraqi Refugee 
Crisis Act of 2007, it was enacted in January, it created a 
special category for direct access to the U.S. Refugee 
Admissions Program for Iraqis who worked with the U.S., were 
associated with the U.S., but also for minorities and religious 
minorities who had relatives in the United States.
    We kind of anticipated that by a few months by offering 
direct access to any Iraqis who had relatives in the U.S. We've 
begun that outreach. We wrote to, I think, 8,000 people in that 
category in the U.S., encouraging those who have filed 
petitions or could file petitions for relatives in Iraq, for 
them to do so.
    Mr. Dingell. Mr. Chairman, that's a very valuable answer.
    Mr. Ambassador, I thank you.
    I note, Mr. Chairman, you had asked about the success and 
the progress of the programs we have now, and I'd like to echo 
not only your concern on this matter, but that of literally 
thousands of Americans, Iraqi Americans, and just ordinary 
citizens. That I'm troubled that the program has not been 
moving forward as fast as we would like, not only are we not 
putting enough money into it, but that I have the apprehension 
that the money is not being spent fast enough to accomplish our 
purpose. I hear constant concerns from my constituents about 
those Iraqis who have gone to Jordan or to Syria and to the 
misfortunes that are befalling the families who have done this.
    I'm even hearing questions of women who are being forced 
into prostitution to support their families. This tells me that 
it is of urgent need that we should move with great vigor to 
address the problems, particularly of those who are in Syria 
and Jordan, so that this kind of situation does not happen 
anymore.
    Can you give us a comment on that, please, Mr. Ambassador?
    Mr. Foley. Yes, Mr. Chairman. I in some respects spoke to 
that earlier in the hearing, but I think it certainly bears 
repeating that I fully share your sense of urgency and concern.
    We see this as an evolving situation in terms of the needs 
of refugees, evolving in an alarming direction. This is not a 
static picture. The numbers of refugees actually are not 
increasing, because largely it's no longer possible for Iraqis 
to get access into neighboring countries. That is somewhat 
static, the number itself, but the number of those falling into 
the needy category, the increasing needs themselves, I think is 
something that we don't dispute.
    On the contrary, we see an evolving, alarming picture. 
Therefore it underscores the urgency that you note. I share it 
completely. We need to fund these international appeals.
    Before you arrived, I talked about what the U.S. is doing, 
the significant funding we're providing. We have a shortfall 
and we need to get it funded and we need to get it funded now.
    I've just returned from a trip and this is not the end, by 
any means, of U.S. diplomacy in this regard. It's the beginning 
that you can expect at different and higher levels vis-a-vis 
other partners with means and interests in this region. We're 
going to do everything we can to get urgently the international 
appeals funded so that the needs of this population are met.
    Thank you.
    Mr. Dingell. Thank you.
    Mr. Chairman, I thank you for your courtesy.
    Mr. Hastings. Thank you very much, Chairman Dingell. I 
appreciate it very much.
    I do have a significant amount of questions that I will 
submit and I'm determined that we hear from our second panel. 
We expect that votes are going to occur at 4 o'clock, and 
toward that end I would appreciate if the second panel would 
come forward.
    Ambassador Foley and Ms. Scialabba, thank you all so very 
much.
    If I could invite to take their places Mr. Michael 
Gabaudan, the Washington director for the United Nations high 
commissioner for refugees, Mr. Anders Lago, the mayor of 
Sodertalje.
    I also had invited Mr. Saleh. I was asking my friend, Ervin 
Awling who is here, Mr. Mayor, and when I talked with you about 
people that I knew in Sweden, I didn't know that he was going 
to be here. But I told him that I didn't want to run the risk 
of saying the name of your city, but now am I correct, it's 
Sodertalje.
    Yes, thanks to Ervin, I got it closer to correct. Again, I 
apologize to you. I'm fond of saying, the staff gets tired of 
hearing me say it, it's hard to apologize for working, but so 
help me, and the time constraints have been extraordinary in 
these last two days. I'm deeply appreciative of your patience 
in that regard.
    Let's begin, and I'd ask you all to submit your full 
statements for the record and try, if at all possible, to 
summarize your comments in five minutes.
    I'd like to now start with Mr. Gabaudan, if you will, sir.

  MICHAEL GABAUDAN, WASHINGTON DIRECTOR, UNITED NATIONS HIGH 
                   COMMISSIONER FOR REFUGEES

    Mr. Gabaudan. Thank you very much, Chairman Hastings and 
other members of Congress. I'm very grateful for the 
opportunity you gave the Office of the High Commissioner for 
Refugees to bring to your attention how we assess the Iraqi 
situation, how it has impacted the neighboring countries and 
the response we try to give to that crisis.
    I will cover briefly of the nature of the crisis, the 
response of neighboring countries, what we did and then touch 
at the end briefly on returns. The Iraqi refugee crisis is 
characterized by its huge scope. It's now the third refugee 
crisis in the world. It's very particular in that it is 
essentially a refugee population of urban origin--about 80 
percent of those we have registered do come from Baghdad--and a 
population that had relocated itself in asylum also in an urban 
context. There are no Iraqi refugee camps.
    Most of the refugees have entered neighboring countries 
legally, with their passports and with a period of stay that 
was granted by these authorities. Perhaps most importantly, 
these Iraqi refugees are in the overwhelming majority not 
fleeing persecution by their government, but by other entities 
and what they see is the incapacity of their government to 
protect them, but not persecution by their government.
    I think this is important, because it certainly should 
facilitate discussion with the Iraqi government in bringing 
their interest in securing Iraqi refugees and eventually 
solutions.
    The last aspect of this crisis that has really stunned us 
is the very high percentage of Iraqi refugees who have been 
heavily traumatized by their experience. People are not fleeing 
because they heard a bomb or because they fear violence. They 
flee, the overwhelming majority, because they have been direct 
victims of bombings, of shootings, of abductions, of torture, 
or they have witnessed it among their very immediate relatives, 
a very high proportion, if we compare it with our experience 
with other refugee populations.
    Designing countries, essentially, Jordan, Lebanon and 
Syria, but also Turkey and Egypt, have responded, I think, 
given the numbers essentially in a very positive manner. It's 
important to note that neither Syria nor Jordan nor Lebanon are 
signatory to the refugee convention. Therefore, they have no 
obligation towards refugees. They do not wish to consider these 
people as refugees, as we understand the word. They have 
received them as guests.
    We had some concern because that does not entitle to a 
particular status. The high commissioner in his recent visit to 
the region was satisfied that in general he found that over the 
last year what we call the protection space for Iraqi refugees 
has definitely improved.
    As you know, borders are more difficult to cross now. There 
has been certainly almost a closure in Jordan and a near 
closure in Syria, with still some movement taking place, but 
it's difficult to cross the borders. As Ambassador Foley said, 
that we now deal with a population that is rather stable in 
neighboring countries.
    The impact in neighboring countries has been of two kinds. 
One, it has been an impact on the cost of living, particularly 
in the rental of low-scale apartments, in which refugees are 
seeking to house themselves, and a tremendous impact on 
services, in particular, education and health. Recently, we 
were very pleased that both Jordan and Syria have granted 
access to their schooling system to all Iraqi refugees. How we 
put this practice, of course, quite a challenge, given the 
numbers.
    How do Iraqi refugees live? Mostly from their savings. The 
myth that all those Iraqis who left are wealthy, et cetera is 
wrong. We have seen since the Samarra bombing an increasing 
pauperization of the Iraqi population and their savings are 
obviously dwindling.
    Many still receive remittances from Iraq. It's one of the 
odd refugee crises where people had to flee because of threats, 
but they survive because some of their relatives are still able 
to send them some funds. Few are able to work.
    Our response has been in two ways, Mr. Chairman. First, we 
have started in early last year, when our funding became more 
forthcoming and we could spread our presence in the region, to 
boost certainly our registration effort and we have so far 
registered a little over 250,000 refugees in these different 
countries. The purpose of registration is to assess their needs 
better.
    These people are in an urban environment. It's difficult to 
know where they are as they come to you and identify 
themselves. It helps us to identify the degree of vulnerability 
and what sort of answer we should give to this vulnerability.
    It allows us to give them documents which we hope will 
increasingly offer some protection in their relation with the 
authorities of these companies, and it allows us to determine 
what sort of assistance they need, whether it's in food, non-
food items, or, for the most vulnerable, as we are doing 
particularly now in Syria, through cash assistance through a 
credit card system.
    Finally, this registration also identified those who would 
fit into our categories of vulnerability that determine we can 
present them for resettlement. We have submitted for 
resettlement to the U.S. and other countries about 12 percent 
of the whole number that we have registered.
    Resettlement is important, not only because it addresses 
the most vulnerable, but also because it is a demonstration of 
burden sharing to the countries who are hosting these large 
numbers. The second aspect we try to respond to the crisis is 
support these governments in boosting to a certain extent their 
capacity in the health and education services to respond to the 
demands of refugees, and particularly in health where there is 
a high number of extremely serious diseases that need very 
sophisticated treatment. It is a heavy burden for these 
countries.
    The high commissioner has however insisted that what we can 
do in health and education through the humanitarian channel is 
going to be limited and bilateral aid is required of a more 
developmental nature to help these countries.
    We do expect the needs of the population to increase as 
time passes, not because the numbers are increasing, but 
because their coping mechanisms are going down because of 
basically the drying up of their savings and the increase of 
the cost of living in these countries. We expect that as we 
keep on registering and we estimate now that we probably will 
be able to register up to 500,000 by the end of this year--
that's doubling the numbers we have now--that we will find an 
increasing number of people who do need assistance and this is 
certainly reason to keep on boosting our presence and our 
support in these countries.
    Finally, yes, we're engaged in trying to look at what the 
requirements for return will be, because it's obvious that for 
the majority of the population the long-term solution will be 
to return to Iraq, and this is why we are now establishing 
representation to Iraq, which initially was raising amounts 
back into Baghdad so we can begin discussions with the 
government. But this is going to be a long discussion to 
establish all the prerequisites for return.
    I'll be happy to answer any questions you might have on 
this regard. Thank you very much.
    Mr. Hastings. Thank you. I note that we've been joined by 
my good friend and the co-chairman of the Helsinki Commission, 
Senator Ben Cardin.
    Ben, do you wish to comment now?

 HON. BENJAMIN L. CARDIN, CO-CHAIRMAN, COMMISSION ON SECURITY 
                   AND COOPERATION IN EUROPE

    Mr. Cardin. No, I would prefer the witnesses to complete 
their statements.
    Mr. Hastings. Thank you very much, Senator.
    Mayor Lago, please, if you would proceed.

           MR. ANDERS LAGO, MAYOR, SODERTALJE, SWEDEN

    Mr. Lago. Thank you, Chairman Hastings, members of the 
congressional commission, ladies and gentlemen.
    First and foremost, I would like to thank the commission 
for your invitation. Allow me to be totally frank: I'm not a 
president, a cabinet minister, an ambassador or even a member 
of the Swedish Parliament. I'm the mayor of Sodertalje.
    Mr. Chairman, I understand it's hard to pronounce 
Sodertalje. I can tell you that Sinato Boma had problems to 
pronounce Sodertalje when I met him some days ago.
    Sodertalje is a small town with slightly more than 80,000 
inhabitants. I'm here today as the representative from a small 
country on the northern edge of the European Union. But I can 
say with both pride and disappointment that when it comes to 
refugees I come from a great nation.
    The United States is the country in the Western world that 
accepts the largest number of refugees. Directly thereafter 
comes Sweden, and according to census statistics, it is my 
hometown that receives most Iraqi refugees in Sweden.
    Many Iraqi refugees have sought shelter in Sodertalje since 
the start of the war in Iraq. Almost all belong to the 
Christian minority. Sodertalje accepts approximately 5 percent 
of all Iraqi refugees who come to Europe.
    To illustrate this even more dramatically, my little town 
alone receives more Iraqi refugees than United States and 
Canada together.
    We did not start the war in Iraq. However, we assume a huge 
responsibility for those people who are affected. Last week, I 
met with seven Iraqi pupils at a local school. Meena, a girl in 
fifth grade, had a tear in her eye when she said, it is nice 
here in Sweden, but I miss my father. Her father is still in 
Iraq.
    Another little girl, Meryem said with an edge to her voice, 
if the war continues, the doors must be open for the refugees. 
All the children I met have relatives left in Iraq.
    When I asked these children what they wanted to be when 
they were older, they brightened up and competed with one 
another to tell me. Renza wanted to become an artist. Steve 
wanted to become a policeman. Meena said shyly that she wanted 
to become a doctor. These children, in spite of all they had 
been through, have not let the circumstances diminish their 
ability to dream of the future.
    In Sodertalje, we face three problems. Firstly, our schools 
and preschools are full. Of the town's 8,000 people, 500 are 
enrolled in the special preparation classes we have for newly 
arrived refugees. We cannot hire teachers or build schools fast 
enough to take care of all these pupils.
    Secondly, there is a lack of living accommodations. A great 
many of the refugees lodge with relatives or friends. We know 
of cases of 15 people sleeping on mattresses in a two-room 
apartment.
    Last but not least, we have a shortage of job 
opportunities. A small town cannot possibly produce jobs for 
1,000 refugees each year. Here, the United States could really 
help Sodertalje. American companies looking to set up 
businesses or expand in Europe are most welcome to visit my 
hometown.
    I'm in awe of the refugees' ambition and will to make new 
lives for themselves. Many of those who come to our town are 
well educated and motivated to start a new life in a new 
country.
    We need immigrants if we are to manage the demographic 
challenge we face. Despite the fact that we need immigrants, 
Sodertalje has become a town that must now say, stop, stop, 
stop. Do not misunderstand me. We will always help others when 
we can. We must act when the lives of our brothers and sisters 
are in danger.
    It's imperative that we have a humane refugee policy 
worldwide. The millions of refugees in the world must be a 
concern for us all, not just for those areas bordering on the 
breeding grounds of war or for a small number of countries and 
cities such as Sodertalje.
    Sodertalje works hard to spread the reception of refugees 
equally over the whole of Sweden, to all cities and towns. 
Internationally, we must find a model for the equal and more 
responsible reception of refugees. We must also have special 
support for the refugees on site in Iraq, in Jordan and in 
Syria.
    Most of all, we must put an end to this and other ongoing 
wars. The children I met last week have cousins and friends who 
are left behind in Iraq. Those children are trying to lead a 
normal childhood in a land where uneasiness and fear are always 
present.
    I'm not a president, I'm not an ambassador, but I know that 
we must create a new future for the children fleeing from war, 
and I know there is no time to lose.
    Thank you for your attention.
    Mr. Hastings. Mr. Mayor, with your permission, when we 
transcribe your remarks, I'd like very much to put them on the 
Helsinki Web site and to have them placed in the Congressional 
Record.
    In sum, in a very poignant fashion, you have put forward 
the sum total of why we have this important hearing today. As 
one member of Congress, would add that your country and you and 
your city and its citizens are an inspiration. I offer my 
heartfelt thanks and deep appreciation for all you do for all 
of us.
    Mr. Saleh, if you would proceed, sir.

   NOEL SALEH, BOARD OF DIRECTORS, ARAB COMMUNITY CENTER FOR 
             ECONOMIC AND SOCIAL SERVICES (ACCESS)

    Mr. Saleh. Thank you, Mr. Chairman, members of the 
commission.
    The purpose of our testimony today is to assist you in your 
comprehensive review of the Iraqi refugee crisis by sharing our 
experiences and our strategies at ACCESS that we've employed to 
assist Iraqi and other refugees transition into the American 
society.
    ACCESS, or the Arab Community Center for Economic and 
Social Services, has been around for 37 years, and I'm going to 
leave Chairman Dingell's comments to serve as a statement of 
the efficacy of our services.
    ACCESS, our trademark of our services is the cultural 
sensitivity and the coordinated manner in which we have 
wraparound or holistic services. We have a one-stop shop, 
providing a seamless point of entry and a unified needs 
assessment for all persons who seek services in our 
institution. That's even truer when we are dealing with 
refugees.
    We've heard about the huge number of refugees created by 
the 2003 Iraqi war, and I won't go over those statistics again. 
But I think it's significant to note that the U.S. has received 
a rather minuscule amount of refugees.
    In fiscal year '05, it was 198. In fiscal year '06, it was 
2,002. In fiscal year '07, it was 1,608 and this year it's been 
2,627. I was heartened to hear the testimony of Ambassador 
Foley and Ms. Scialabba that they actually hope to meet the 
target of 12,000 for this year.
    But, again, this is totally inadequate to address the needs 
of this needy population. A significant number of the refugees 
who do make it to America will end up in southeast Michigan.
    As an aside, Mayor Lago, we're actually looking to you in 
southeast Michigan for Europe to be investing and building 
businesses in our end of the community. We're suffering a 
little bit in that area ourselves.
    But the population that will end up in southeast Michigan 
will be as a result of both primary and secondary refugee 
placement. Primary are those who are originally settled in our 
area. But what we've learned from our experience in the 1991 
Gulf war is that we will have a substantial increase in 
actually secondary resettlement.
    Following the '91 Gulf war, 3,000 Iraqi refugees were 
settled in southeast Michigan. Within one year of that 
settlement, that population grew to 14,000 as a result of 
secondary resettlement. Secondary resettlement results because 
refugees are placed with good agencies, but they're placed in 
St. Paul, Minnesota, and Lincoln, Nebraska, and they find 
themselves in a totally culturally vacuumed environment.
    As Congressman Dingell indicated, southeast Michigan, metro 
Detroit, is recognized as the heart of the Arab-American 
community, where we have the highest concentration of Arab-
American first, second and third generation outside the Middle 
East. As a result of our having established institutions, 
cultural, political and economic, once refugees hear of that, 
they learn of it quickly and then they are drawn to our area.
    Refugees present a distinct set of service needs and 
problems in resettlement. First and foremost is that these 
persons are not voluntary immigrants. So while they present 
with many of the same needs that regular immigrants present, 
they also have substantially more severe needs for services.
    Through a contract with the Michigan Department of Human 
Services, ACCESS is designated as the provider of mandatory 
medical screening for all primary refugees arriving in 
southeast Michigan.
    In a recent screening of 554 recent refugee arrivals, we 
did not have a substantial incidence of health problems 
significantly larger than that of the general immigrant 
population. Similarly, refugees in general suffer more from 
mental health issues than the general immigrant population. 
What we find is a substantial incidence of post-traumatic 
stress syndrome.
    Consistent with this finding, it's my understanding that 
the UNHCR did a report in January of this year where they 
interviewed 500 and some Iraqi refugees, representing some 
3,000 different family individuals and they reported a 100 
percent finding of some significant experience of trauma, that 
one in five of Iraqi refugees are registered with the U.N. as 
classified as victims of torture and/or violence.
    The testimony from a client of ACCESS who receives 
assistance from our Psychosocial Rehabilitation Center for the 
Victims of Torture, one of five such centers recognized by the 
U.N. and the United States: My name is Intessar Naser and I'm a 
34-year-old female refugee from Iraq. I came to the United 
States in 2007 with my three children in the hopes of finding a 
better life for us.
    I was subjected to an enormous amount of suffering in Iraq, 
including the witnessing of the death of my husband. After 
arriving in the United States, I am faced with many obstacles, 
which I did not expect. Living cost, financial support barely 
covers my necessities.
    Since I have few family members in the United States, my 
support system is extremely lacking. I have searched for a job, 
but due to the few skills which I have, my lack of education, 
language and other things, I'm unsuccessful. I struggle on a 
day-to-day basis to keep my family alive, and this has added to 
my grief and to my stress.
    I know that I am not alone and that there are many others 
who suffer the same, if not worse. I am grateful for the United 
States in providing me safety, but I hope that through my 
testimony someone will acknowledge that more assistance is 
urgently needed for refugees coming to this country.
    As with all newcomers, those who have immigrated to the 
United States from the Arab world come with dreams and hopes of 
establishing a better life for themselves, their families and 
their future generations. Unfortunately, this is a much more 
daunting task than any of them had anticipated.
    Iraqi refugees face challenges in meeting their basic 
needs. Many refugees struggle with poverty after they exhaust 
their eight months of social welfare benefits that are 
allotted. After eight months it stops, unless you're a family. 
This is a result of the Personal Responsibility and Work 
Reconciliation Act of '96.
    It made available for refugee families an extension or a 
seven-year limit for the receipt of social services, SSI and 
related benefits. This seven-year period was intended to allow 
these individuals to have a sufficient opportunity to become 
U.S. citizens, and then they'd be able to retain their 
eligibility.
    However, many, if not most, are unable to complete their 
requirements for citizenship within these seven-year periods. 
It's anticipated that by the year 2010 there will be an 
additional 48,000 refugees who have lost their eligibility for 
supplemental security income benefits.
    Now, ideally, refugees would learn English, pass the 
citizenship examination and become U.S. citizens. But, for a 
traumatized population facing the multiple barriers, especially 
the limited English language proficiency, chronic illness, 
mental impairments, the path to citizenship is just fraught 
with too many obstacles in their way.
    For those that are able-bodied and capable of applying for 
citizenship, the current backlog in processing by USCIS and the 
FBI has resulted in even that path to citizenship not being 
able to be accomplished within the seven-year period.
    The story of Hassan, another Iraqi refugee, who resettled 
in Dearborn in 1998. They came to ACCESS and we initially 
helped him with his refugee assistance application with the 
Department of Human Services. That was valid for eight months, 
and we assisted him with job training and job placement, but 
the job placement lasted for two months, because Hassan 
suffered from a severe psychiatric schizophrenic disorder and 
he was unable to maintain his employment.
    With that, we were able to get him onto the SSI rolls and 
we were able to advocate for him. When he became eligible to 
become a citizen in 2004, we did his citizen application.
    Now, we could apply for a waiver of his English language 
requirement because of his documented medical condition, which 
prevented him from learning the English language, but that's an 
exception. But even with all of that, the delays in the 
background and security checks where the citizenship 
application required four years from the filing of his 
application until he was ultimately approved.
    During this four-year period, he lost his SSI benefits and 
there were no benefits available for him. There was no safety 
net until he actually became a U.S. citizen.
    In addition to the health and mental issues, employment is 
a substantial issue, if someone's going to be integrated into 
the American society, into any society in which they're living.
    But the traditional employment and training programs are 
not equipped to respond to the refugee population. These state 
and federal programs are generally not bilingual and the 
eligibility requirements and the benchmarks for success make it 
adverse or preclude, actually, refugees being welcomed into 
these job training programs, because they get benchmarked by 
how many people have they trained, how many people have they 
placed. These are people that lack any great skills in terms of 
employability.
    The traditional programs don't like refugees to come into 
the job training programs. ACCESS we believe is unique in our 
ability to provide culturally sensitive services for these 
refugees. But for those who do not end previous in southeast 
Michigan, it is unlikely that they will be able to receive the 
broad variety of welfare assistance and program assistance that 
we're able to provide in our agency.
    Our agency is a model, I believe, for the providing of 
effective human and social services. As Congressman Dingell 
indicated, we do this not just for the Arab-American 
population, but for the total population in southeast Michigan. 
But especially with our refugee applicants, and they're not all 
from Iraq, we have a model of having an individual case manager 
for each refugee family. That case manager ensures that all of 
the programs that are available through our organization or 
that might be available in the other state or local agency are 
made available to those members.
    We believe we're unique. We believe that it is only through 
such aggressive treatment and services that refugee populations 
are going to have any chance of integrating themselves, 
becoming engaged in the society which they will now be living 
in for the rest of their lives. There is just a paucity of 
resources available, nationally or locally, to meet the demands 
that even the limited number of Iraqi refugees being admitted 
to the United States have.
    Thank you very much.
    Mr. Hastings. We'll begin our questioning with Mr. Smith
    Mr. Smith. Mr. Chairman, thank you so very much.
    Mr. Gabaudan, if I could ask you on behalf of the audience 
here, yesterday, General Petraeus, and the day before, 
Ambassador Crocker, testified before the House and the Senate. 
Ambassador Crocker, and you probably heard me say earlier, when 
quoted him, said that the UNHCR has returned international 
staff to Iraq to assist with the return of internally displaced 
persons.
    We all see that and greet that with a great deal of hope 
and optimism. I'm sure it's not to the point where, and you can 
tell us, doing much processing in and of itself. But I would 
ask, if you could, tell us about the conditions on the ground.
    One of the things that General Petraeus emphasized was that 
there are now some 91,000 what they're calling sons of Iraq, 
who now, acting out of self-interest and enlightened self-
interest, who now understand that Al Qaida and other militants 
don't mean them well--they are a lethal threat to their 
families and to their communities--are now joining a growing 
number of the police battalions, as well as the military 
battalions and acting in a way that you would expect a security 
force to do so.
    I wondered if you might shed some light as to whether or 
not that's creating some of the space that we're all hoping for 
that return.
    Secondly, along the same lines, the surge was and is 
controversial. I happened to have supported it. Nobody likes 
the fact that our military men and women are deployed there. 
The sooner they get home the better, from all of our points of 
view, because we have lost so many lives. But it seems to me 
that if the surge has created a space that will allow 
repatriation to help and to assist the internally displaced, 
that needs to be said. We need to know whether or not that's 
accurate and whether or not reality and perception are meshed 
as one.
    On the mental health side and I appreciate the good work of 
UNHCR and ACCESS.
    Mr. Saleh, thank you for your statement. I was struck by 
your comment that 100 percent of those interviewed experienced 
at least one traumatic event.
    I sponsored the Torture Victims Relief Act, and we have a 
reauthorization now that is pending in the Senate, has been 
pending for months.
    We need to provide, I believe, the additional resources 
that legislation would push us towards, both in terms of the 
U.N. voluntary fund and the torture victim relief centers here 
in the United States and abroad. Your point is well taken and I 
will talk to him about what you've told us today. But we need 
to push to get that out as soon as possible.
    Finally, two things. On trafficking, what are you seeing, 
particularly on the ground with regards to trafficking in 
country, in Iraq, as well as outside? The Chaldean Christians, 
I held a hearing on their plight and their very unique 
circumstances that they suffer in Iraq and I think 
disproportionately to their number they make up the refugee 
population. Obviously in raw numbers they don't.
    But maybe you could speak to that issue, as well, as to 
whether or not, because many of those individuals have been 
killed, kidnapped and suffer immensely, and I don't think many 
of them can go back.
    Mr. Gabaudan. Thank you very much, Congressman.
    First, in return, following Security Council Resolution--I 
think it was 1570 or 1670, I'm not quite sure, that called for 
greater U.N. engagement in Iraq, every U.N. agency is trying to 
see how it can increase its presence in Baghdad. For the time 
being, we are essentially talking about either Baghdad or the 
northern governorates.
    As part of this effort, the high commissioner decided to 
put some of his staff back into Baghdad. We are talking about 
very few slots. The U.N. has so many slots and each agency has 
to find out how many it gets. We're not talking about a major 
return of plenty of staff. We're just talking about putting a 
representative and some other immediate colleagues to try to 
begin a discussion with the Iraqi government about what are the 
prerequisites for returns.
    Now, obviously, any news that security is improving is a 
view that goes in the right direction and every news that there 
are some attempts at reconciliation is of course news that 
brings us closer to looking at the possibility of return. But I 
think so far the high commissioner has been quite clear on 
that. The improvements in security are not certainly wide 
enough, broad enough and certainly not sustainable enough for 
us to advocate for returns.
    The attempts at reconciliation, we have just seen the 
beginning. I think we need much more reassurance that it's a 
very lasting process that takes place before we can advocate 
for return.
    Other issues will have to be looked at for return. This is 
a population which is essentially urban. They will hit houses 
and flats. If you look at the way Baghdad is distributed 
between different groups now, as compared to what it was before 
the war, there is a complete redistribution of religious groups 
in the different neighborhoods.
    We will have to know what the government intends to do in 
terms of compensation or restitution for people who have lost 
their property. All these things, all these systems, need to be 
established before we can really advocate that people can go 
back.
    Finally, I would say that there is still some work to do 
with different ministries in the Iraqi government, all of whom 
do not have exactly the same views on the refugees. I think 
there is need to bring a sort of consensus between the 
different ministries to have a national policy on how we are 
going to address returns.
    It is with these challenges in view that we are 
reestablishing our presence in Iraq. I think it's to say we 
have to start looking at how to prepare for return. It's not 
going to be a complicated process, and let us not forget that 
as we discuss about the return of the perhaps 2 million people 
who are outside, we will also have to discuss about the return 
of the 2 million people who have been displaced within Iraq, 
most of whom also come from urban centers.
    Mr. Hastings. Ms. Solis.
    Ms. Solis. Mr. Chairman, I apologize. We have a vote on the 
floor and I have to also take a plane ride, but I do personally 
want to thank these witnesses in particular and to Mr. Lago in 
particular. Although you said you're not a president, you 
indeed are a humanitarian ambassador.
    I want to personally congratulate you, because you have 
shown a light on humanity by taking in--your city has welcomed 
so many Iraqis. We know that you are overburdened. We see that 
very clearly and I know many of us here in the Congress will 
work very hard to see that we try to provide enough funding so 
that we can adequately process these refugees and provide the 
tools that are necessary. But, more importantly, those that are 
going to be re-placed here in the United States.
    To Mr. Saleh, thank you for your comments and the type of 
wraparound services that you currently provide to Arab 
refugees. I hope that we can work with you in other parts of 
the country where we have large segments of Arab populations, 
for example, in southern California, in Orange County, which I 
am very familiar with, and know that we need to provide 
essential tools so that our CBOs that are also similar to NGOs, 
provide assistance on the ground in a multicultural setting 
that is familiar to these refugees.
    We did this when we had refugees from Vietnam. We should be 
able to do it for the Iraqis that will be coming here, as well.
    With that, it's more of a comment, and I just want to 
personally thank you and I want to thank our Chairman, Mr. 
Alcee Hastings, for having this very, very important hearing. I 
look forward to working with all of you.
    Mr. Cardin. I know my House members have to go for a vote, 
but if you would like to respond to the trafficking issue, the 
status of trafficking in Iraq.
    Mr. Gabaudan. Trafficking can take many different aspects. 
I mean, one aspect we are the most worried about is the one 
that leads to sexual exploitation of women and young girls from 
families who are seeing their living conditions drop 
dramatically.
    This is an issue that you do not address through the 
registration. People will not come forward with these stories. 
You have to do a lot of outreach, which we are trying to do 
right now by working with refugee workers in other communities 
and try to convince slowly that we have something to offer.
    We have opened a series of safe houses for women that we 
can extract from that. Some don't want. Some families are 
reluctant to have working on that.
    I am less aware of what are the networks of trafficking 
from Iraq into neighboring countries or even further away. We 
know it probably happens, but we don't have information of how 
they work.
    Mr. Cardin. Let me first make a comment, and then I will 
have a couple of questions. This morning, in the Senate Foreign 
Relations Committee that I serve on, we took up the long-term 
relationship between the United States and Iraq.
    The administration is in the process of negotiating a 
strategic framework agreement without the consent of the 
Congress. I expressed at that time my deep opposition to that 
plan by the administration.
    I think that they will enter into an agreement that's 
contrary to the majority members of the United States 
Congress--and I don't mean from a partisan point of view, just 
the numbers are opposed to this administration strategy in 
Iraq--and to the sentiment of the American people.
    One of my difficulties in judging what the administration 
is doing is that we need to have an honest assessment of what's 
happening on the ground. That's why I was particularly pleased 
that the Helsinki Commission is holding this hearing, to get a 
better assessment of what's happening in regards to the 
displaced individuals within Iraq and the neighboring 
countries, what's happening to the refugees, so that we can 
better understand how Iraq will look in the future.
    The testimony here indicates that the United Nations has 
been able to register about 260,000 of the refugees. We know 
that there are close to 5 million Iraqis that are displaced 
within Iraq and neighboring countries and throughout the world. 
That's a small fraction of the total number of people who have 
been impacted.
    We clearly want to resettle. I agree with your testimonies, 
that resettlement is by far the best policy. But according to 
the United Nations high commissioner, in the reports that I 
have seen, and I am going to ask shortly Mr. Gabaudan whether 
this is accurate or not, the conditions on the ground do not 
warrant the resettlement of the vast numbers within Iraq.
    In response to Mr. Smith's comment, quoting Ambassador 
Crocker, he had quoted Ambassador Crocker accurately, but it's 
my understanding that the U.N. mission is not to assist in 
resettlement within Iraq but to assess the conditions, as to 
whether it's feasible and what is necessary in order to 
resettle. I'm not sure that was an accurate portrayal by 
Ambassador Crocker.
    We desperately are going to need humanitarian programs. If 
it's not safe to resettle within Iraq, if there are not 
enough--if the surrounding countries cannot and should not be 
able to permanently house the refugees, if the international 
community is not prepared to accept the vast numbers, 
humanitarian programs both within and outside of Iraq are going 
to be necessary. We also need to assist in resettlement in 
other countries.
    Mayor Lago, I want to thank you particularly for your 
extraordinary efforts. You put us all to shame, other countries 
to shame. If your small city can handle that many refugees, 
more than Canada and the United States, I think that speaks 
volumes as to what we should be doing here in the United 
States.
    We have Iraqis that assisted the United States that must 
leave Iraq because of their helping us, and we're not providing 
the means for them to resettle. I have joined my colleagues in 
requesting $68 million during this appropriation process to 
deal with Iraqis with special immigrant visas, those who helped 
the United States, in order to try to start making some 
progress in this area.
    Mr. Gabaudan, let me just start with you, if I might, and 
see whether you agree as to--I heard Mr. Smith asked this 
question, but I want to try to get a more direct and focused 
answer.
    The United Nations high commissioner for refugees, can you 
tell us what their current assessment is in regards to the 
safety within Iraq for a significant number of refugees safely 
returning to their communities in a safe resettlement plan?
    Mr. Gabaudan. My apologies, Mr. Chairman. We don't have 
direct information because we are not circulating within Iraq, 
except in the northern governorates, so I cannot give you the 
results of direct assessment by the high commissioner for 
refugees within the country.
    But, certainly, from the interviews we made with those 
refugees who returned in December and who were given some 
incentives by the Iraqi government to return, we found that the 
large majority had returned, because they had depleted the 
resources in their asylum countries, not because they thought 
security was better. A large proportion of them were eventually 
displaced within Iraq. They could not go back to their homes.
    That already indicates that for a small number who went--I 
mean, Iraqi government was talking about perhaps 30,000. We 
don't know the exact figures. But for a small proportion of the 
whole number that are out, this attempt was not very 
successful.
    When you talk to Iraqis in asylum countries, most of them 
say that the conditions are not right. Let's not forget, again, 
it's an urban population. They all have cell phones. They call 
back home all the time. They know the conditions back in their 
country perhaps better than we do. I think we have to take 
their word for that.
    What we do plan to do with the Iraqi government is to set 
what are the preconditions to start talking about returns. I 
think this will be a long discussion. I think it will have to 
address lots of issues, and it's not exactly wrong to start 
now.
    But starting to discuss return, by no means in the mind of 
the high commissioner, is equivalent to say, I think it's time 
to return. It's a different proposal. It's going to be a 
complex plan of repatriation and we need to start looking at 
what it means and discuss with our partners.
    Mr. Cardin. I appreciate that answer. The administration's 
own testimony indicated that one of the reasons--not the sole 
reason--but one of the reasons, according to the 
administration, that there's less violence in Baghdad in that 
the neighborhoods have been more ethnically cleansed.
    Therefore those who have been displaced from certain 
neighborhoods in Baghdad, it would not be safe for them to 
return to their former neighborhoods. That issue has not yet at 
all been addressed by the Iraqi government, and it's sort of 
being pushed aside, where I think ultimately we're going to 
have to pay attention to that.
    But, at this moment, with security still, according to the 
administration, being so fragile and certainly reversible, 
there is no plan by the Iraqi government to facilitate the 
return of large numbers of refugees within Baghdad, and I would 
suggest, probably within the entire country.
    Mayor Lago, let me just come back to you for a moment. I 
had a chance to meet with you and a chance to understand a 
little bit more about what you have to go through as a mayor 
with such a large number of new residents.
    Can you just share with us the impact it has on the 
infrastructure, on your schools, on your housing and how you're 
dealing with that from the point of view of a mayor of a 
municipality?
    Mr. Lago. Yes, thank you. Before I do that, let me tell you 
something about the situation of the refugees' children, only a 
moment.
    I can tell you that it's not uncommon for children in our 
schools that they cry when it's time for vacation. I was 
surprised when I first heard that, but imagine the difficult 
housing situation with 15 people in a small apartment, sleeping 
on mattresses on the floor, the difficult housing, which have 
no corner in the house where the children can sit down and do 
their lessons.
    It's a very hard situation for the young children of the 
refugees. I understand them and I understand why they are 
crying when it's time for vacation, because it's much better in 
our school or in the flats.
    One of the big problems for the infrastructure is the 
shortage of accommodation. A lot of people are living in the 
same flat, so then that's one big problem.
    The other problem is for the children, it's a very hard 
situation in our schools. I said before that we have about 
8,000 pupils totally, but now we have 500 pupils that is newly 
arrived refugees, so that's a very hard situation.
    We have a system in Sweden for the first two, 2.5 years, 
the government takes care of the economic situation for the 
refugees, but after that it's the municipality that takes the 
responsibility. After a time, it will also be an economic 
problem for the municipality.
    Mr. Cardin. How is this being received by the greater 
population of your city? Is there resentment with the large 
number of immigrants? Have they integrated well into the 
municipality? Is there a form of segregation where they are not 
able to interact with the rest of the community?
    Mr. Lago. I think I would say both Sodertalje and Sweden in 
common are very open and friendly for people coming from other 
countries and for refugees. In my town, about 30 percent is 
people coming from abroad or have relatives from abroad, so we 
are used to meeting people in that situation.
    But, when it's a lot of people coming in a short time, then 
it's a problem for a small town. Both ethnic Swedes, and also 
people just arrived from Iraq, are telling me, now we must step 
up and we must spread the refugees all over Sweden.
    I think the big problem is the concentration to some areas 
and some cities. It's not a problem for Sweden to take care for 
about 20,000, 30,000 refugees per year, but we have a national 
problem that we must have new legislation so it's possible to 
spread the refugees to all municipalities and all cities in 
Sweden. But that's our problem.
    Mr. Cardin. Well, I appreciate your testimony. I think you 
are just a prime example of how a community can accept a 
significant number of immigrants and yet it does not impose 
insurmountable obstacles. If we had a better sharing, a better 
responsibility for more countries that are capable of accepting 
refugees for resettlement, particularly where these refugees 
would prefer to go to some of these countries, that there is an 
international responsibility here and it is not being met.
    I could also talk about the humanitarian assistance. I know 
the United States is paying a little bit more than its 
traditional share, but the need for humanitarian assistance is 
dramatic, and we have not yet seen the international community 
step up, either to accept refugees or to assist in the way they 
should with humanitarian aid.
    Mr. Saleh, I want to ask you a question about the children, 
because the mayor had me interested as to how you see the 
children who have come to the United States, how well they have 
been able to adjust to the United States, whether there have 
been any special problems and whether government policies here 
could help make it easier for young people, through our schools 
or through other programs, to adjust to the United States?
    Mr. Saleh. Thank you, Mr. Cardin. The children have 
suffered generally. On the first arrival, the biggest problem 
that they're facing is obviously they're also traumatized, 
being dislocated at a young age.
    They've been interrupted from their educational system for 
substantial periods of time, and then they're coming to the 
United States and they are behind in their educational training 
in their native language. They don't have English language 
skills and there has been an increasing trend to do away with 
ESL, to do away with funding for ESL. This is obviously placing 
a great challenge.
    I think what draws the refugee population to Michigan is 
that they are able to have this sort of extended family. There 
is a large concentration of Arabic speaking and Iraqis in our 
community, and so they're to have at least some feeling of an 
extended family support that perhaps in Mayor Lago's city they 
don't have that same support.
    But that doesn't mean that their transition into American 
society isn't fraught with all of the difficulties that Mayor 
Lago has identified in the children that he's visited with.
    Mr. Cardin. Well, let me thank you for that. I thank all 
three of you for your real leadership. The United Nations has 
played an extraordinary role historically dealing with refugees 
and it's certainly again being challenged in Iraq.
    All three of you have presented, I think, information 
that's extremely important. This is a very important part not 
just of the humanitarian agenda internationally, which it is, 
but stability within that region of the world. If we're going 
to be able to bring about the type of Middle East that we think 
is important for U.S. interests and for the international 
community, then we certainly need to deal with 5 million people 
today that are living in a different location than they did 
just a few years ago, many of which are living under extremely 
difficult circumstances, once which should not be maintained 
the way it is today and need to give them hope for their 
future.
    I think this hearing has provided us in Congress with a 
better understanding of the issue. I thank you all for making 
the effort to testify before us.
    With that, the commission will stand adjourned.




                                     

  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre></body></html>
